         U.S ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Can Improve Implementation
       of the Risk Management Program
       for Airborne Chemical Releases
       Report No. 09-P-0092

       February 10, 2009
Report Contributors:                Rick Beusse
                                    Hilda Canes Garduño
                                    Bao Chuong
                                    Jim Hatfield
                                    Erica Hauck
                                    Rebecca Matichuk




Abbreviations

CAA           Clean Air Act
CFR           Code of Federal Regulations
EPCRA         Emergency Planning and Community Right-to-Know Act
EPA           U.S. Environmental Protection Agency
FTE           Full-Time Equivalent
OAR           Office of Air and Radiation
OECA          Office of Enforcement and Compliance Assurance
OEM           Office of Emergency Management
OIG           Office of Inspector General
OSWER         Office of Solid Waste and Emergency Response
RMP           Risk Management Plan
TRI           Toxics Release Inventory




Cover photo: Damage from an explosion and fire at a polyvinyl chloride manufacturing facility
             in 2004. Vinyl chloride monomer, the primary raw ingredient for polyvinyl
             chloride and a regulated substance under the Risk Management Program, fueled
             the explosion and fire. The surrounding community was evacuated as a result of
             this accident. (Photo courtesy of U.S. Chemical Safety and Hazard Investigation
             Board)
                      U.S. Environmental Protection Agency                                                    09-P-0092
                                                                                                       February 10, 2009
                      Office of Inspector General


                      At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review            EPA Can Improve Implementation of the Risk
The purpose of the Risk           Management Program for Airborne Chemical Releases
Management Program under
Section 112(r) of the Clean Air    What We Found
Act is to reduce the likelihood
of airborne chemical releases     EPA can improve its program management and oversight to better assure that
that could harm the public, and   facilities covered by the Clean Air Act’s Risk Management Program submit or
mitigate the consequences of      re-submit an RMP. EPA had not established national procedures for identifying
releases that do occur. We        covered facilities that had not submitted RMPs. For the 5 States reviewed, we
conducted this review to assess   identified 48 facilities in 3 States that reported large amounts of covered chemicals
U.S. Environmental Protection     stored on-site that had not filed RMPs. These facilities are potential RMP non-
Agency (EPA) implementation       filers. For example, 10 such facilities reported having over 100,000 pounds of
and oversight of this program.    ammonia on-site at one time, which is 10 times greater than the regulatory
                                  threshold. Further, the status of nearly one-third (452 of 1,516) of the facilities
Background                        EPA identified in 2005 as being past their due date for re-submitting an RMP had
Under the Risk Management         not been resolved and updated in the RMP National Database as of March 2008.
Program, stationary sources       Also, State permitting agencies did not properly include program requirements as
that have more than the           a condition of facilities’ Title V operating permits. When properly administered,
threshold quantity of regulated   the Title V process can help ensure that covered facilities submit RMPs to EPA
substances on-site in any one     and comply with program requirements.
process must implement a risk
management program. All           EPA can also strengthen its inspection process to provide greater assurance that
covered facilities must submit    facilities comply with Risk Management Program requirements. EPA had not
a Risk Management Plan            inspected or audited over half (296 of 493) of the high-risk facilities identified by
(RMP) to EPA that describes       EPA’s Office of Emergency Management (OEM). Since most States have not
and documents the facility’s
                                  accepted delegation of the program, EPA is responsible for ensuring compliance for
hazard assessment, and its
                                  over 84 percent of facilities nationwide. Of the 296 uninspected high-risk facilities
prevention and response
programs. Facilities must         managed by EPA, 151 could each impact 100,000 people or more in a worst-case
update and re-submit these        accident. Accident data suggest uninspected high-risk facilities are more than five
plans at least every 5 years      times as likely to have an accident than uninspected lower-risk facilities.
and when changes occur.
                                  EPA has made efforts to improve the program. OEM funded studies to assess
For further information,
                                  facility accident rates and used this information to develop and distribute a list of
contact our Office of             high-risk facilities to help regions better prioritize inspection efforts.
Congressional, Public Affairs
and Management at                  What We Recommend
(202) 566-2391.
                                  We recommend that EPA implement additional management controls to identify
To view the full report,          facilities with regulated chemicals that have not filed RMPs. We also recommend
click on the following link:
                                  that EPA develop inspection requirements to target higher-priority facilities for
www.epa.gov/oig/reports/2009/
20090210-09-P-0092.pdf            inspection and track its progress in completing inspections of these facilities.
                                  The Agency concurred with all of our recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                        February 10, 2009

MEMORANDUM

SUBJECT:       EPA Can Improve Implementation of the Risk Management Program for
               Airborne Chemical Releases
               Report No. 09-P-0092


FROM:          Wade T. Najjum
               Assistant Inspector General for Program Evaluation

TO:            Barry Breen
               Acting Assistant Administrator for Solid Waste and Emergency Response

               Catherine McCabe
               Acting Assistant Administrator for Enforcement and Compliance Assurance

               Elizabeth Craig
               Acting Assistant Administrator for Air and Radiation

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $517,983.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0832
or najjum.wade@epa.gov, or Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
EPA Can Improve Implementation of the                                                                                       09-P-0092
Risk Management Program for Airborne Chemical Releases



                                  Table of Contents

Chapters
   1    Introduction ...........................................................................................................      1

                Purpose ..........................................................................................................    1
                Background ....................................................................................................       1
                Noteworthy Achievements..............................................................................                 3
                Scope and Methodology.................................................................................                4

   2    Improvements Needed in Management and Oversight of
        Processes for Identifying Covered Facilities......................................................                            5

                Regulations Require All Covered Facilities to Submit an RMP ......................                                   5
                Existing Data Can be Used to Identify Facilities.............................................                        6
                Status of Facilities Not Re-Filing RMPs Needs to be Resolved .....................                                   8
                Program Requirements Not Properly Addressed during
                       Title V Permit Process ..........................................................................             10
                Conclusions....................................................................................................      12
                Recommendations .........................................................................................            12
                Agency Comments and OIG Evaluation.........................................................                          13

   3    Many High-Risk Facilities Have Not Been Audited or Inspected......................                                           15

                Oversight Includes Audits and Inspections.....................................................                       15
                Significant Percent of High-Risk Facilities Not Inspected or Audited ............                                    17
                Factors Limiting EPA’s Ability to Inspect/Audit RMP Facilities .......................                               19
                EPA Does Not Require Inspection of High-Risk Facilities..............................                                22
                Impact of Accidents at RMP Facilities ............................................................                   24
                Conclusions....................................................................................................      25
                Recommendations .........................................................................................            25
                Agency Comments and OIG Evaluation.........................................................                          26

   Status of Recommendations and Potential Monetary Benefits.................................                                        27


Appendices
   A    Details on Scope and Methodology.....................................................................                        29
   B    Regional Activities to Identify Non-Filers ...........................................................                       32
   C    Agency Responses ...............................................................................................             33
   D    Overall Inspection/Audit Rates of RMP Facilities ..............................................                              41

                                                            - continued -
EPA Can Improve Implementation of the                                                                                      09-P-0092
Risk Management Program for Airborne Chemical Releases




   E    On-Site Risk Management Program-Related Inspections and
        Audits by EPA Region ..........................................................................................             42
   F    Inspection/Audit Rates for Facilities Reporting Accidents ...............................                                   43

   G    Distribution ............................................................................................................   44
                                                                                    09-P-0092




                                Chapter 1
                                 Introduction
Purpose
          The purpose of the Risk Management Program under the Clean Air Act (CAA) is
          to reduce the likelihood of airborne chemical releases that could harm the public,
          and mitigate the consequences of releases that do occur. We conducted this
          review to assess the U.S. Environmental Protection Agency’s (EPA’s)
          implementation and oversight of this program. The objectives of our review were
          to determine whether:
             •   Procedures are in place to provide reasonable assurance that all facilities
                 subject to Risk Management Program regulations have submitted Risk
                 Management Plans (RMPs), and

             • The inspection process provides reasonable assurance that covered
                 facilities comply with Risk Management Program requirements.

Background
          In 1984, an accidental release of a hazardous chemical caused thousands of deaths
          and injuries in Bhopal, India. In reaction, Congress passed the 1986 Emergency
          Planning and Community Right-to-Know Act (EPCRA) to help communities plan
          for emergencies involving hazardous substances. However, EPCRA did not
          require facilities to assess or reduce risks from chemical accidents. Subsequently,
          in 1990, Congress amended Section 112 of the CAA to enact a program to
          prevent releases of certain hazardous chemicals and to mitigate the consequences
          of such releases to the surrounding community.

          EPA issued the Risk Management Program rule in 1996 to meet CAA Section
          112(r)(7) requirements. Under the Program, stationary sources that contain more
          than the threshold quantity of any of 140 regulated substances (77 toxic and 63
          flammable substances) in a process are required to conduct a worst-case release
          assessment and prepare and submit an RMP to EPA. The RMP describes and
          documents the facility’s hazard assessment, and must include the results of an
          off-site consequence analysis for a worst-case chemical accident at the facility.
          Facilities whose worst-case release assessment shows that the public could be
          exposed during such a release, and/or the covered process has had a significant
          accidental release of a regulated substance during the 5 years prior to the RMP
          submission, are subject to additional requirements. These facilities must also
          implement a prevention program, an emergency response program, and an overall
          management system to supervise the implementation of all required program
          elements. Facilities were required to submit their first RMPs by June 21, 1999,


                                         1
                                                                                        09-P-0092


and must update them at least every 5 years. Facilities must also update their
RMPs when on-site regulated substances or processes change.

Facilities subject to the Risk Management Program submit their RMPs to the
RMP Reporting Center, which is overseen by EPA’s Office of Emergency
Management (OEM) within the Office of Solid Waste and Emergency Response
(OSWER). The RMP Reporting Center maintains all the RMP-related
information submitted by the facilities, and compiles that information in the RMP
National Database, which is updated on a continuous basis. The database
contains all the information in the plans submitted by individual facilities,
including restricted off-site consequence analysis information. The data in the
RMP National Database represent all facilities that have ever submitted an RMP.

Universe of Facilities Regulated by Risk Management Program Rule

As of November 29, 2007, 13,672 facilities had active RMPs on file with EPA.
The number of RMP facilities varies greatly by EPA region. Figure 1.1 shows the
total number of RMP facilities located in each region.

 Figure 1.1: Number of RMP Facilities by EPA Region [1]

                              3,500


                              3,000
   Number of RMP Facilities




                              2,500


                              2,000


                              1,500


                              1,000


                               500


                                 0
                                      R1   R2   R3       R4   R5    R6   R7   R8   R9     R10

                                                               Region

 Source: OIG-developed figure from data obtained from EPA’s RMP National Database.
 [1] = Includes RMP facilities in States with delegated programs.

Facilities that have filed RMPs represent over 200 industries, ranging from
refrigerated warehouses to petroleum refineries. Many of these facilities are also
regulated under other safety/hazards programs, such as Section 302 of EPCRA
(82.9 percent) and the Occupational Safety and Health Administration’s Process
Safety Management program (52.6 percent). The three most commonly reported
substances subject to the Risk Management Program requirements are anhydrous
ammonia, chlorine, and flammable mixtures.


                                                     2
                                                                                     09-P-0092




         Because of differences in the amounts, toxicity levels, and properties of chemicals
         held in a process and the location of the facilities, the risk and potential impact of
         an accident varies greatly among RMP facilities. Depending on the facility, the
         population potentially impacted in a worst-case release scenario ranges from zero
         to over 10 million for a single facility, as reported in facility RMPs submitted to
         the RMP National Database. More specifically, 550 of the facilities in EPA’s
         RMP National Database reported that 100,000 people or more could potentially
         be impacted during a worst-case release at the facility.

         Implementation of Risk Management Program

         Although the Risk Management Program is required by the CAA, it is overseen
         by EPA’s OEM in OSWER. EPA directly implements most of the Program, since
         very few State and local agencies have taken delegation of the Program. As of
         February 2008, only nine States and five local agencies had accepted full or
         partial delegation. Of the 13,672 active RMP facilities, EPA regions were
         responsible for overseeing compliance for 11,529 facilities, while delegated State
         and local agencies were responsible for 2,143. Figure 1.2 shows a comparison by
         percentage.

         Figure 1.2: Percentage of RMP Facilities Managed
         by EPA Regions versus States and Local Agencies

                   State/Local
                    Agencies
                      16%




                                             EPA Regions
                                                84%


         Source: OIG-developed table from data obtained from
         EPA’s RMP National Database.


Noteworthy Achievements
         In 2002, EPA entered into a cooperative agreement with the University of
         Pennsylvania’s Wharton School to analyze the RMP data submitted between 1999
         and 2005. This analysis considered any statistical associations between the
         characteristics of the reporting facilities (such as size and location, quantity of
         chemicals held in a process, company financial performance, and socioeconomic
         characteristics of the host community for the facility) and the frequency and
         severity of accidents. The Wharton School also analyzed accident histories and
         identified industry sectors with a high number of reported accidents, such as
         petroleum refining, chemical manufacturing, and refrigerated warehousing and


                                            3
                                                                                   09-P-0092


         storage. Results of this study, completed in 2007, have helped EPA to prioritize
         inspections based on risk.

         In 2007, OEM developed and distributed a list of high-risk facilities to help
         regions better prioritize inspection efforts. In addition, the Office of Enforcement
         and Compliance Assurance (OECA) and OEM jointly revised their national
         guidance for Fiscal Year 2009. The revised guidance includes additional specific
         risk-related factors the regions should consider when selecting facilities to
         inspect. These factors include the same factors OEM based its high-risk list on, as
         well as the accident history of the facility over the past 5 years.

Scope and Methodology
         We conducted several analyses using data from the RMP National Database,
         inspection and audit records obtained from EPA regions and delegated States and
         local agencies, and the Toxics Release Inventory. We focused on activities
         conducted from 1999 to December 2007 to ensure compliance with the RMP
         provisions of the Risk Management Program Rule under CAA Section 112(r)(7).
         We conducted our evaluation from November 2007 to July 2008.

         We interviewed staff and managers from EPA’s OEM, OECA, Office of Air and
         Radiation (OAR), and all 10 EPA regions and 4 States. We also obtained data
         from all EPA regions and 9 States and 5 local agencies with delegation of the
         Risk Management Program. In addition, we obtained and reviewed applicable
         Program policies, procedures, guidance, performance measures, and reporting
         requirements from these offices and agencies.

         We conducted this evaluation in accordance with generally accepted government
         auditing standards. Those standards require that we obtain sufficient, appropriate
         evidence to provide a reasonable basis for our findings and conclusions based on
         our evaluation objectives. We believe that the evidence obtained provides a
         reasonable basis for our findings and conclusions based on our objectives.

         In addressing the second objective, we limited our assessment to whether full
         Risk Management Program on-site inspections or audits (i.e., conducted using the
         complete Program audit or inspection checklists) were conducted at facilities that
         had active RMPs on file with EPA. We did not assess the effectiveness of
         inspections or audits conducted. Given the significant number of facilities that
         had not received on-site inspections or audits, we believe sufficient data were
         gathered to address our objective.

         Additional information on our scope and methodology is in Appendix A.




                                        4
                                                                                      09-P-0092




                                 Chapter 2
Improvements Needed in Management and Oversight
   of Processes for Identifying Covered Facilities
          EPA needs to improve its management and oversight of the CAA Risk
          Management Program to provide reasonable assurance that covered facilities
          submit or re-submit RMPs as required. Specifically:
             • Our limited review of existing chemical data for 5 States identified
               48 facilities in 3 States that reported large amounts of covered chemicals
               stored on-site that had not filed RMPs. These facilities may be subject to
               the RMP rule and thus required to file RMPs.
             • The status of almost one-third of the facilities identified in 2005 as being
               past their anniversary date for RMP re-submission had not been resolved
               and updated in the RMP National Database as of March 2008.
             • Permitting agencies did not correctly incorporate the Risk Management
               Program requirements into the operating permits of large stationary sources
               (CAA Title V facilities) in the eight States reviewed.

          EPA’s Risk Management Program procedures and guidance did not specify what
          activities regions or States should conduct to identify potential RMP non-filers and
          how often they should conduct those activities. In addition, EPA’s procedures and
          guidance did not establish timelines to assess the status of facilities that had not re-
          filed their RMPs after 5 years. For Title V facilities, most of the States contacted
          were unaware of EPA’s guidance on how to address the Program during the Title V
          permit process. As a result of these conditions, some facilities subject to the
          Program may not be preparing RMPs and taking adequate measures to prevent
          accidents or mitigate the consequences of such accidents to the public. Further,
          without a plan detailing the chemicals located on-site and the risks associated with
          those chemicals, first responders may not have the information necessary to safely
          and effectively respond to a chemical accident.

Regulations Require All Covered Facilities to Submit an RMP
          Risk Management Program regulations (Title 40, Code of Federal Regulations
          (CFR), Part 68) require all covered facilities to submit an RMP that describes the
          facility’s risk management program and the potential off-site impacts that could
          result from a worst-case release. Facilities must update and re-submit these plans
          at least every 5 years. If a facility closes, the facility is required to formally de-
          register from the Program. In addition, 40 CFR Part 68 requires Title V
          permitting agencies to include Risk Management Program requirements as a
          condition of the Title V permit for covered facilities. According to 40 CFR Part
          68 and clarifying guidance issued by EPA in 1999, permitting agencies are



                                          5
                                                                                                   09-P-0092


                 required to verify whether a covered facility has submitted an RMP, regardless of
                 whether the agency has delegation of the Risk Management Program.

Existing Data Can be Used to Identify Facilities
                 Using existing data available to EPA, we identified 62 facilities with large on-site
                 quantities of covered chemicals. From this initial list of 62, we identified 48
                 facilities that may be subject to the Risk Management Program but have not filed
                 RMPs (i.e., potential non-filers). We conducted a search using the 2006 Toxics
                 Release Inventory (TRI) and found that this search can be an effective way to
                 identify facilities that may be subject to the Program. We used the Maximum
                 Amount of Chemical On-site data element1 to search for facilities in four States
                 (Colorado, North Carolina, Pennsylvania, and Texas) with on-site quantities of
                 chlorine, ammonia, or hydrogen fluoride well above the Program thresholds. We
                 selected these chemicals because they are the toxic chemicals most involved in
                 accidents at RMP facilities. We then searched the RMP National Database
                 (current as of November 29, 2007) to determine whether the facilities identified in
                 our TRI search had filed an RMP. After we identified potential non-filers for
                 each of the four States, we discussed the results with EPA regional staff to gather
                 additional information on the facilities.

                 We identified 39 facilities as potential non-filers because the amounts of
                 chemicals stored on-site, as reported to TRI, were well above the Risk
                 Management Program thresholds and the facilities had not submitted an RMP to
                 EPA. Staffs in the regions that cover these facilities were able to provide
                 information as to why they believe 14 of the facilities we identified were likely
                 not RMP non-filers. However, they agreed to conduct additional work to
                 determine whether the remaining 25 facilities need to submit RMPs.

                 Three of the remaining 25 facilities were large coal-fired electric utilities in
                 Pennsylvania. Many utilities across the nation have begun using a technology
                 called selective catalytic reduction to reduce nitrogen oxide emissions. This
                 technology requires facilities to store a large amount of anhydrous ammonia
                 on-site. Region 3 staff told us the coal-fired utilities we identified in our TRI
                 search may be using this type of technology, and thus may be subject to the Risk
                 Management Program requirements. The three facilities each reported having
                 over 100,000 pounds of ammonia on-site at one time, which is 10 times greater
                 than the Risk Management Program regulatory threshold.

                 We conducted a similar review for potential non-filers by using chemical data
                 collected under EPCRA. We selectively tested for non-filers in one State,

1
  This data element reports the total amount of a given chemical stored on-site at one time. Since the Risk
Management Program threshold amount is based on the amount of a chemical used, stored, manufactured, handled,
or moved on-site in any one process and not the total amount stored at the facility, the Maximum Amount of
Chemical On-site reported in TRI may not necessarily mean the facility is required to submit an RMP. For this
reason, we selected amounts well over the Risk Management Program threshold.


                                                    6
                                                                                                         09-P-0092


                 Oklahoma, because Oklahoma had a readily available electronic database of
                 EPCRA data.2 We obtained 2008 data3 from Oklahoma and identified 23
                 facilities that reported amounts of chlorine, ammonia, or hydrogen fluoride on-site
                 at levels well above the program’s thresholds but had not submitted an RMP to
                 EPA. Eleven of the 23 facilities were in industry sectors typically subject to the
                 Program, such as ammonia refrigeration and fertilizer facilities.

                 We provided EPA regional offices with lists of the 62 facilities identified during
                 our searches and discussed the status of these facilities with regional staff.
                 Table 2.1 presents the results of our searches using TRI and EPCRA data.

                 Table 2.1: Results of TRI and EPCRA Searches for Potential Non-Filers
                                      Facilities
                                     with Large                                                           Facilities
                                     Amounts of                                                          Requiring
                                     Chemicals        Data         Results of Discussions with           Additional
                        State         On-Site        Source             Regional Offices                 Follow-up
                   Colorado                2        TRI        Region 8 provided information                  0
                                                               indicating these facilities are likely
                                                               NOT required to submit RMPs.
                   North                  10        TRI        Region 4 and North Carolina provided           0
                   Carolina                                    information indicating these facilities
                                                               are likely NOT required to submit
                                                               RMPs.
                   Pennsylvania           13        TRI        Region 3 told us 11 facilities could be       11
                                                               potential non-filers, and plans to
                                                               contact or inspect them to determine
                                                               if they need to submit RMPs.
                   Texas                  14        TRI        Some of the facilities may be                 14
                                                               potential non-filers, and Region 6
                                                               plans to contact them to determine if
                                                               they need to submit RMPs.
                   Oklahoma               23        EPCRA      Several of the facilities had submitted       23
                                                               RMPs for facilities in the same city
                                                               but at different addresses. Region 6
                                                               plans to follow up to clarify this
                                                               apparent discrepancy and determine
                                                               whether the remaining facilities need
                                                               to file RMPs.
                   Total                  62                                                                 48
                 Source: OIG analysis using TRI data, EPCRA Tier II data, and the RMP National Database.


                 We discussed activities to identify non-filers with eight regions. The regions we
                 contacted reported undertaking various activities to identify non-filers, including
                 reviewing industry data, State-maintained EPCRA data, data from the National

2
  Because facilities report EPCRA data to State and local emergency responders, the data are generally maintained at
the State or local level. Unlike TRI, the data are not maintained by EPA.
3
  Under EPCRA, facilities are required to report the amount of certain hazardous chemicals they store on-site to
State and local emergency responders. Chemicals reported under EPCRA in amounts over the Risk Management
Program threshold may not necessarily mean the facility is covered by the Program since the threshold is based on
amounts in individual processes, not the total amount stored at the facility.


                                                       7
                                                                                     09-P-0092


          Reporting Center, and conducting on-site non-filer inspections. However, these
          activities and their frequency varied by region, and staff from two regions we
          contacted were not aware of the ability to search TRI using the Maximum
          Amount of Chemical On-site data element.

          The universe of facilities subject to the Risk Management Program requirements
          is continuously changing, as new facilities open and existing ones close,
          de-register, or make process or operational changes. While the regions conduct
          various activities to identify non-filers, EPA has not established national
          procedures to identify methods and timelines for conducting non-filer searches.
          Without procedures and methods in place to identify these facilities on a regular
          basis, some covered facilities may fail to submit an RMP and take the actions
          required by the Program regulations to prevent, deter, and mitigate accidents.

Status of Facilities Not Re-Filing RMPs Needs to be Resolved
          Facilities must update their RMPs at least every 5 years. According to the RMP
          National Database (current as of March 28, 2008), 664 facilities had not
          re-submitted a plan by their 5-year anniversary date. This equates to about
          5 percent of the total universe of RMP facilities. Some of these facilities may be
          closed or are no longer subject to the Risk Management Program. However, they
          have not de-registered and were still listed as active facilities in the RMP National
          Database as of March 28, 2008. Of these 664 facilities, 452 were more than 2
          years past their 5-year anniversary.

          OEM distributes monthly reports to the regions listing facilities that have not
          re-filed their RMPs or de-registered by their 5-year anniversary date. OEM
          distributed the first of these reports in September 2005, which was a year after
          most facilities should have submitted their first 5-year update. This report
          identified 1,516 facilities past their 5-year anniversary date. We compared the
          September 2005 report to the facilities past their 5-year anniversary date in March
          2008. This comparison showed that the number of past-due facilities in the RMP
          National Database decreased between September 2005 and March 2008, from
          1,516 facilities to 664 facilities. However, the status of 452 (or 29.8 percent) of
          the 1,516 facilities originally identified in September 2005 was still unresolved as
          of March 2008. In addition, 13 facilities that met one or more of the high-risk
          facility criteria discussed in Chapter 3 were on both the September 2005 and
          March 2008 lists, meaning their status had remained unresolved for at least
          2.5 years.

          Table 2.2 compares, for each region, the number of facilities past their 5-year
          anniversary date in September 2005 to the number in March 2008.




                                          8
                                                                                09-P-0092




Table 2.2: Number of Facilities Past 5-Year Anniversary Date in 2005 and 2008
                                                                     No. of Facilities Past
                                                                      5-Year Anniversary
                No. of Facilities Past     No. of Facilities Past   Date as of March 2008
              5-Year Anniversary Date    5-Year Anniversary Date     that were on Original
  Region       as of September 2005         as of March 2008        September 2005 Report
     1                     51                          6                         3
     2                     49                          9                         4
     3                     10                          3                         0
     4                    178                        82                        55
     5                    471                       208                       179
     6                    428                       204                       143
     7                    156                        51                        21
     8                     52                        34                        22
     9                    105                        66                        25
    10                     16                          0                         0
   Total                1,516                       664                       452
Source: OIG analysis using data from the RMP National Database.

As shown in Table 2.2, all of the regions had a lower number of unresolved
facilities in March 2008 than in September 2005, due to activities undertaken by
the regions. For example, Region 6’s RMP Enforcement Coordinator told us that
in 2005 and 2006 Region 6 sent 373 formal CAA Section 114 letters to facilities
that had not re-submitted, resulting in Region 6 assessing penalties at 100
facilities. The coordinator also informed us that 91 facilities either were no longer
subject to the Program or could demonstrate they had attempted to update their
RMPs. Further, approximately 130 letters were returned undeliverable due to
facility closures, relocations, or incorrect information in the original RMP.
Region 3 staff told us that they started an initiative in 2004 to identify facilities
that re-filed their RMPs late. This initiative resulted in settlement agreements
with fines at about 60 facilities that failed to re-submit their plans.

Despite these activities, some regions still had a relatively large number of
unresolved facilities in March 2008. Other than the reports it sends to the regions
listing the facilities that are past their anniversary, EPA does not have specific
procedures or timelines in place for following up with facilities that are late in
re-submitting their plans.

Some of the facilities that remain unresolved may be closed facilities that did not
de-register. To address this issue, OEM provided guidance to the regions in 2006
on how to remove closed facilities from the universe of active facilities in the
RMP National Database. To remove a facility from the active universe, the
region must verify that a facility is closed or no longer in operation, and that
covered chemicals are no longer present at levels above the regulatory thresholds.
Verification requires a site visit or other credible, documented evidence.
However, closed facilities still appeared as active in the RMP National Database.




                                   9
                                                                                                            09-P-0092


                  We found evidence that 7 of 13 high-risk facilities on both the September 2005
                  and March 2008 lists were no longer in operation but had not been removed from
                  the active list of facilities in the RMP National Database. Without an accurate
                  picture of the regulated universe in the RMP National Database, Program staff
                  may not be able to effectively plan and prioritize compliance assurance activities,
                  such as inspections.

                  Since March 2008, Regions 3 and 8 took additional actions to resolve past-due
                  facilities. Staff from these regions told us they had since resolved the status of the
                  past-due facilities that we identified as unresolved in the RMP database in March
                  2008.4 Appendix B provides more information about regional activities to
                  identify non-filers.

Program Requirements Not Properly Addressed during Title V
Permit Process
                  CAA Title V permitting agencies did not properly address Risk Management
                  Program requirements during the Title V permit process. Title V sources are the
                  largest stationary sources of air pollution. Approximately 16 percent (2,222) of
                  the RMPs filed with EPA were for Title V facilities. Although Title V facilities
                  are a small part of the overall universe of RMP facilities, over half of the facilities
                  on OEM’s high-risk list are Title V facilities.

                  According to 40 CFR Part 68.215(a), Title V operating permits should include a
                  statement listing the Risk Management Program requirements as a condition when
                  applicable. However, permits in only three of eight States reviewed specifically
                  identified the Program’s requirements as a condition of the Title V permit when
                  applicable. The remaining five States used conditional language in their Title V
                  permits, regardless of whether the facility was subject to the Program’s
                  requirements. An example of the conditional language from one of the State’s
                  permits follows:

                           When and if the requirements of 40 CFR Part 68 become
                           applicable, the Permittee shall comply with all applicable
                           requirements of 40 CFR Part 68.

                  An OAR manager confirmed that the Title V permit should contain a statement
                  that definitively establishes these requirements as a condition of the permit when
                  the requirements are applicable to the facility. The OAR manager also told us
                  that conditional statements, such as the one above, are not sufficient for
                  incorporating the Risk Management Program provisions into the Title V permit.
                  The manager also told us that if a facility is not subject to Program requirements,

4
  During interviews with Regions 3, 6, and 8, we provided staff with lists of the past-due facilities we identified in
the RMP National Database in March 2008. Because we did not interview any of the other regions about late
re-filers, we provided the lists to only these three regions; other regions may also have taken additional steps to
resolve past-due facilities since March 2008.


                                                        10
                                                                           09-P-0092


the permit should not contain any statements regarding CAA Section 112(r)
provisions.

Additionally, 40 CFR Part 68.215(e) requires that Title V air permitting agencies
verify that the source owner or operator has registered and submitted an RMP or a
revised plan when required. Specifically, the regulation states:

        The air permitting authority or the agency …shall, at a minimum:
       (1) Verify that the source owner or operator has registered and
       submitted an RMP or a revised plan when required by this part.

We interviewed staff from four of the eight States to determine how they
addressed the Risk Management Program during the permit application and
issuance process. Based on these interviews, none of the States independently
verified during the permitting process whether a covered facility had registered
and submitted an RMP or revised plan, if required. Specifically:

•   Two States required facilities to say in their permit application and annual
    compliance certifications if they had submitted an RMP, but did not
    independently verify this. The States did not request that the facility submit a
    copy of the plan to the State, nor did they check the RMP National Database
    to see if the facility had a plan on file. Staff from these States asked us about
    obtaining access to the RMP National Database because they thought the
    information in the RMPs was restricted and not available to the public.

•   Two States did not ask facilities to say in their permit application whether
    they were subject to the Risk Management Program requirements. Staff from
    the two States said they do not ask about the requirements because the States
    do not have delegation of the Program. Staff told us they assumed EPA was
    responsible for verifying whether covered facilities had submitted plans.

EPA’s “Title V Program Responsibilities Concerning the Accidental Release
Prevention Program” guidance, issued in 1999, recognizes that State and local
agencies with permitting authority may not have delegation of the Risk
Management Program. The guidance states that these activities are the
responsibility of the permitting agency, regardless of whether the State has
accepted delegation for the Program. However, staff from three of the four States
we contacted told us they were not aware of EPA’s guidance.

In at least one instance, EPA’s oversight of the Title V program did not identify
deficiencies pertaining to incorporating Program requirements into the Title V
permit process. We found that one State in Region 9 did not incorporate the Risk
Management Program’s requirements into its Title V permits and did not ask
permit applicants whether they were required to submit an RMP. However, the
Region’s comprehensive evaluation of this State’s Title V program, conducted in




                                11
                                                                                    09-P-0092


         2005, did not report any concerns pertaining to Risk Management Program
         requirements.

         Title V permits provide a comprehensive accounting of all applicable CAA
         operating requirements for a facility, and require that facilities certify compliance
         with these requirements annually. Accordingly, the Title V permitting process
         provides a management control for identifying facilities subject to the Risk
         Management Program requirements, and ensuring that these facilities comply
         with these requirements. However, if States do not properly incorporate the Risk
         Management Program requirements into the Title V permits where applicable,
         this control is not available. In addition, the public is not provided with accurate
         information regarding the specific regulations applicable to the facility. This is of
         particular importance for the Risk Management Program, since RMP information
         is not readily available to the public due to security concerns.

Conclusions
         EPA can improve its procedures, guidance, controls, and oversight for ensuring
         that facilities have submitted or re-submitted an RMP as required. EPA should
         establish procedures for periodic reviews to identify potential non-filers that
         include the use of TRI and other useful search methods. In addition, EPA should
         establish timelines for resolving the status of facilities and removing closed
         facilities from the active list of facilities. Addressing RMP status during the
         Title V permitting process can also help ensure that covered facilities file their
         RMPs with EPA and comply with the Risk Management Program’s requirements.
         These actions can help provide an accurate and complete picture of the Program
         universe, which regulators need to prioritize and select facilities for inspection.

Recommendations
         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         2-1    Strengthen controls to identify facilities that did not file RMPs by:

                •   Revising Headquarters operating guidance to specify how often the
                    regions should conduct reviews to identify non-filers, and establish
                    milestones for reviewing and removing inactive facilities from the
                    RMP National Database.

                •   Incorporating the TRI search methodology and other effective
                    methodologies used by EPA regions (e.g., using the EPCRA and TRI
                    on-site compliance evaluations) into the new Headquarters guidance
                    for regions to use in identifying potential non-filers.

                •   Updating the RMP National Database to de-activate closed facilities.


                                        12
                                                                                    09-P-0092


         2-2       Ascertain whether the facilities we identified through our TRI and EPCRA
                   data searches are subject to Risk Management Program requirements and,
                   if so, take appropriate action to ensure that these facilities comply with
                   Program requirements.

         We recommend that the Acting Assistant Administrator for Air and Radiation:

         2-3.      Instruct Title V permitting authorities on the proper procedures for
                   identifying and including Risk Management Program requirements in
                   Title V permits – including guidance on how to verify whether facilities
                   have submitted RMPs – and monitor implementation of these
                   requirements.

Agency Comments and OIG Evaluation
         OSWER and OAR agreed with all of the recommendations in Chapter 2.
         OSWER noted that OEM and OECA have been working in coordination for the
         past several years on some of the issues we identified. A summary of the
         Agency’s response to each recommendation and our analysis follows.

               •   Recommendation 2-1: OSWER stated that it will provide guidance to the
                   regions by December 2009. The guidance will specify when regions
                   should conduct reviews for non-filers and what methodologies they should
                   use for these reviews, as well as a timeline for reviewing and removing
                   inactive facilities from the RMP National Database. We believe the
                   Agency’s planned action meets the intent of this recommendation. The
                   recommendation will remain open in our tracking system pending our
                   receipt and approval of the Agency’s final corrective action plan.

               •   Recommendation 2-2: OSWER commented that several regions are in
                   the process of reviewing the facilities we identified in our TRI and
                   EPCRA searches to determine if they are indeed covered by the Risk
                   Management Program requirements and need to submit an RMP. The
                   Agency stated that, depending on the outcome of the reviews, it would
                   take “appropriate action” to ensure that the facilities comply with the
                   requirements. The Agency anticipates that this review should be
                   completed by September 2009. We believe the Agency’s planned action
                   should achieve the intent of this recommendation. The recommendation
                   will remain open in our tracking system pending our receipt and approval
                   of the Agency’s final corrective action plan.

               •   Recommendation 2-3: OAR stated that it will remind Regional Air
                   Directors about the 1999 Title V permitting guidance and instruct them to
                   inform State Title V program managers of its existence as well. OAR also
                   submitted a corrective action plan with milestones for these actions. We
                   have accepted the corrective action plan for Recommendation 2-3, and the


                                          13
                                                                       09-P-0092


       recommendation will be “closed” in our tracking system upon issuance of
       this report. In accordance with Order 2750, the Agency is responsible for
       tracking completion of this corrective action in the Management Audit
       Tracking System.

Appendix C contains the full texts of OSWER’s and OAR’s responses to the draft
report.




                             14
                                                                                                       09-P-0092




                                           Chapter 3
              Many High-Risk Facilities Have Not Been
                      Audited or Inspected
                 Over half of the high-risk RMP facilities identified by OEM have never received
                 an on-site inspection or audit. Further, over 65 percent of all active RMP
                 facilities had not received an on-site inspection or audit since inception of the
                 Risk Management Program in 1999. Since most States have not accepted
                 delegation of the Program, EPA is responsible for ensuring compliance for the
                 majority of facilities nationwide. However, EPA has a limited number of
                 inspectors to conduct on-site inspections/audits. To encourage more effective use
                 of limited resources, OEM began distributing lists of high-risk facilities to the
                 regions in May 2007. The regions are not required to inspect these higher-risk
                 facilities before lower-risk facilities, but we believe a more rigorous risk-based
                 approach is warranted. We noted 162 facilities that could each impact 100,000
                 people or more under a worst-case scenario accident have never been inspected or
                 audited by EPA or a delegated State or local agency. Accident data suggest that
                 un-inspected high-risk facilities are more than five times as likely to have an
                 accident as un-inspected lower risk facilities.

Oversight Includes Audits and Inspections
                 Title 40 CFR Part 68.220 requires implementing agencies (EPA regions or
                 delegated State and local agencies) to periodically audit RMPs, and requires
                 revisions when necessary to ensure compliance with RMP requirements. These
                 audits are referred to as 68.220 audits. OEM guidance states that full compliance
                 with Program regulations cannot be determined without on-site or independent
                 verification of the information submitted in an RMP. Thus, 68.220 audits can
                 include on-site verification of compliance with the facility’s RMP.5

                 Compliance inspections under CAA Section 114 authority are more
                 comprehensive than 68.220 audits in that they require an on-site visit and review
                 of compliance with all aspects of the Program’s regulations, not just those related
                 to the facility’s risk management plan. Further, inspections can result in direct
                 enforcement actions. As the Program has matured, EPA’s oversight emphasis has
                 moved from audits to federally enforceable inspections. Since Fiscal Year 2007,
                 OECA’s National Program Manager Guidance has stated that regions should
                 conduct inspections and “may include periodic 68.220 audits” as part of their
                 compliance program. OECA includes only inspections – not audits – in its
                 performance measure for the Risk Management Program, and encourages regions

5
  Although 68.220 audits need not be conducted on-site, we included only 68.220 audits that were conducted on-site
in addressing the objectives of this evaluation.


                                                     15
                                                                                                          09-P-0092


                  to devote their resources to inspections rather than audits. However, OEM
                  includes both RMP inspections and audits in its performance measures.

                  Although OECA has a general requirement that regions inspect 5 percent of their
                  total number of regulated facilities each fiscal year (beginning with Fiscal Year
                  2007), some regions have negotiated to conduct a smaller number of inspections
                  because of limited resources. To help regions prioritize their inspections, in 2007
                  OEM identified a list of 402 facilities as Tier 1 facilities and a list of 213 as Tier 2
                  facilities.6 After eliminating de-registered7 facilities, the numbers of Tiers 1 and 2
                  facilities decreased to 390 and 208, respectively, as of November 29, 2007. The
                  majority of these high-risk facilities (493 of 598) are located in areas where the
                  Program is managed by EPA regions.

                  Figure 3.1: Percentage of OEM High-Risk Facilities Managed
                  under EPA Regions and Delegated State/Local Agencies
                  as of November 29, 2007



                                   State/Local
                                    Agencies
                                      18%




                                                                 EPA Regions
                                                                    82%




                  Source: OIG analysis based on OEM’s high-risk list and the RMP National
                  Database.

                  In Fiscal Year 2009, OEM and OECA revised their National Program Manager
                  Guidance to state that regions should consider the following risk-related factors in
                  deciding which facilities to inspect:

                     • Facilities whose reported RMP worst-case scenario population exceeds
                       500,000 people;
                     • Facilities holding any RMP-regulated substance on site in an amount more
                       than 10,000 times the RMP threshold quantity for the substance;
6
  Criteria for listing Tiers 1 and 2 facilities include the population impacted in a worst-case release scenario, the
amount of chemical held in a process that is above the regulatory threshold quantity, and the worst-case release
scenario endpoint distance.
7
  A de-registered facility has submitted a letter to the RMP Reporting Center stating that it is no longer covered by
the Risk Management Program rule and the reasons why. Reasons for de-registering include replacing regulated
substances in a facility’s processes with unregulated substances and decreasing the quantity of regulated substances
in a facility’s processes to below threshold levels.


                                                       16
                                                                                                        09-P-0092


                     • Facilities whose reported RMP worst-case scenario endpoint distance
                       equals or exceeds 25 miles;
                     • Facilities that had one or more significant accidental releases within the
                       previous 5 years; and
                     • Other facilities where information possessed by the regional offices
                       indicates the facility may be high-risk.

                 The first three factors are the same criteria OEM used to develop its list of Tier 1
                 facilities.

                 We obtained on-site inspection and audit data from all 10 EPA regions and all
                 State and local agencies with delegated programs. We then determined the
                 percentage of all RMP facilities that had received an on-site inspection or audit
                 from EPA or a delegated State/local program since the inception of the Program
                 in 1999. We also determined the extent to which EPA regions or State and local
                 agencies had inspected high-risk facilities using three separate criteria, as follows:
                      1. High-risk facilities identified by OEM (Tier 1 plus Tier 2 facilities),
                         which considers the amount of covered chemicals held in a process,
                         potential population impact, and the magnitude of area impacted by a
                         worst-case release scenario.
                      2. Facilities that could impact 100,000 people or more during a worst-case
                         release.
                      3. Facilities with a Wharton School hazard index score in the top 5 percent
                         of all facilities under the jurisdiction of their implementing agency.8

                 It is important to note that identifying a facility as inspected/audited does not
                 necessarily indicate adequate compliance oversight occurred. In many cases,
                 several years passed since the last inspection/audit, and conditions at the facility
                 could have changed. For example, 23 percent of facilities inspected/audited by
                 EPA or State/local agencies were inspected/audited 4 years ago or more. Further,
                 from 26 to 30 percent of high-risk facilities (depending on risk type) were last
                 inspected/audited 4 years ago or more.

Significant Percent of High-Risk Facilities Not Inspected or Audited
                 EPA had inspected/audited about 26 percent of its active facilities in the
                 November 29, 2007, Risk Management Program universe. In contrast, State/local
                 delegated programs had inspected/audited over 70 percent of their facilities.
                 Appendix D shows the percentage of facilities inspected/audited by EPA regions
                 and delegated State/local agencies.



8
  The OIG calculated the hazard indices for RMP facilities using a formula developed by Wharton School
researchers that takes into account the volume of chemical(s) above the regulatory threshold and the number of
regulated chemicals held in a process at the facility.


                                                      17
                                                                                        09-P-0092


Inspection rates for high-risk facilities were greater than for all facilities, but a
significant number of these high-risk facilities remained uninspected. The EPA
regions had inspected only 40 percent of the high-risk facilities identified by
OEM since the program’s inception in 1999. Region 3 had the highest inspection
rate of OEM’s high-risk facilities (96 percent), while Region 6 had the lowest (15
percent). With the exception of Regions 2, 3, and 4, the inspection/audit rates of
high-risk facilities – whether they are among any one of the risk types – were
generally low. All regions had inspection/audit rates of over 60 percent for
facilities that appeared on all three lists except for Region 6 (0 percent) and
Region 9 (55 percent). The overall inspection rates for high-risk facilities were
much greater in delegated State/local programs than the EPA programs. Table 3.1
below shows inspection/audit rates by each risk type.

Table 3.1: Inspection/Audit Rates of High-Risk Facilities by EPA Region and
Delegated State/Local Agencies as of December 31, 2007
                                          Facilities      Facilities with the
                                         Impacting         Highest 5% of
                OEM High-Risk           ≥100,000 in a     Hazard Indices in
                Facilities (Tier 1       Worst-Case       Their Respective   Facilities on
     EPA
               + Tier 2 facilities)   Release Scenario          Region     All Three Lists
  Region or
                       Inspected/           Inspected/            Inspected/       Inspected/
  Delegated
                         Audited              Audited               Audited          Audited
    States/
    Locals      No. No.        % No.         No.    %      No. No.   %      No. No.         %
      1            6      3    50      8       5    63      10   6   60         3      2   67
      2          18      17    94     21      21 100        15  11   73         6      6 100
      3          23      22    96     36      33    92      35  28   80       11      11 100
      4 [a]      31      25    81     31      27    87      23  19   83         7      6   86
      5          88      45    51     77      62    81     127  36   28       29      23   79
      6 [b]     185      28    15 155         31    20     116   9    8       33       0     0
      7          48      12    25     16       8    50     129  20   16         8      6   75
      8          20      13    65     10       6    60      45  15   33         2      2 100
      9          56      23    41     73      24    33      59  20   34       20      11   55
     10          18       9    50     12       6    50      24  12   50         4      3   75
 EPA            493 197        40 439        223    51     583 176   30     123      70    57
 Subtotal
 Delegated      105      90    86 111         95    86     115  96   83       34      29   85
 States/
 Locals
 Total [c]      598 287        48 550        318    58     698 272   39     157      99    63
Source: OIG analysis based on data obtained from the RMP National Database, all 10 EPA
regions, and State/local agencies with program delegation.

[a] Most facilities in Region 4 are managed under delegated programs. The universe and
inspection rates for these facilities are reflected under the delegated States/locals category.
[b] Since December 31, 2007, Region 6 has inspected an additional 12 facilities on the OEM list of
high-risk facilities as of 8/29/08. This includes five facilities that appeared on all three lists.
[c] Totals do not include inspections/audits performed by the non-delegated State programs in
California, Louisiana, and Nevada because we did not assess the scope of these inspections/audits
and these data are not routinely reported to EPA. Region 9 staff told us that California has
conducted over 4,900 inspections under its State accident prevention program, and Nevada
conducts comprehensive reviews of all facilities under its State program at least once every 5 years.

While Table 3.1 shows three different methods of identifying high-risk facilities,
we did not assess whether one method was better than another. Further, we
recognize that other methods for identifying high-risk and priority facilities may


                                      18
                                                                                                      09-P-0092


                 be useful. Also, in some instances, circumstances may dictate that non-RMP
                 facility inspections (e.g., CAA Section 112(r) General Duty Clause inspections)
                 should take precedence over RMP facility inspections. Appendix E presents the
                 total number of all RMP facility, General Duty Clause, and non-filer-related
                 on-site inspections or audits reported by each region.

                 The Risk Management Program regulations and EPA guidance cite a facility’s
                 accident history as a factor for selecting facilities to audit or inspect. Past
                 accident history can be an indicator of unsafe operating practices and thus these
                 facilities may present a greater risk to the public. However, since 1999, EPA has
                 only conducted full RMP inspections or audits at about 39 percent of the facilities
                 that have reported accidents in their RMPs. Facilities were required to report
                 covered chemical accidents in their original RMP submittals. Effective April 9,
                 2004, facilities were required to update the chemical accident section of their
                 submitted RMP within 6 months of the accident. Appendix F shows
                 inspection/audit rates for facilities that reported accidents in their RMPs.

Factors Limiting EPA’s Ability to Inspect/Audit RMP Facilities
                 Three factors appeared to limit EPA’s ability to conduct on-site audits or
                 inspections and thus ensure that facilities comply with Risk Management Program
                 requirements. These factors were: (1) the fact that few State or local agencies
                 had accepted delegation of the Program, (2) the relatively low number of EPA
                 inspectors available to conduct oversight, and (3) limited training. Given these
                 limitations, we believe an inspection approach that targets high-risk facilities and
                 most effectively uses limited resources is needed.

                 Few States Have Taken Delegation of the Program

                 Generally, EPA grants delegation of authority for State and local agencies to
                 implement and administer CAA programs. However, only 9 States and 5 local
                 agencies of the total 114 agencies receiving air grant funds from EPA have
                 accepted delegation of the Risk Management Program.9 The majority of the
                 States (6 of 9) and local agencies (4 of 5) that have accepted delegation are in
                 Region 4. One factor for this was Region 4’s decision to attach Section 105 air
                 grant funds to the Risk Management Program. For example, where Region 4
                 States declined to request delegation of the Program, Region 4 withheld a
                 percentage of that State’s air grant funds.



9
 The nine delegated States are Delaware, Florida, Georgia, Kentucky, Mississippi, North Carolina, New Jersey,
Ohio, and South Carolina. The five local agencies are Allegheny County (Pennsylvania), Buncombe County (North
Carolina), Forsyth County (North Carolina), Jefferson County (Kentucky), and Mecklenburg County (North
Carolina). Although Puerto Rico and the Virgin Islands have technically been granted delegation of the Program,
Region 2 has assumed responsibility for implementing the Program in these territories because of the territories'
funding constraints and/or failure to adequately implement the Program.


                                                     19
                                                                                                        09-P-0092


                 Two States – New Jersey and Delaware – had programs in place before EPA
                 issued its Risk Management Program regulations. Both of these States requested
                 and received delegation of the federal Program from EPA. These two States
                 operate fee-based programs whereby RMP facilities pay fees to the State to cover
                 the cost of administering the program. At least three States – California,
                 Nevada,10 and Louisiana – implement State programs without delegation of the
                 federal Program from EPA.

                 We discussed the use of air grants and Title V permit fees to fund the Risk
                 Management Program with EPA’s OAR staff. OAR staff told us that if a State
                 accepted delegation of the Risk Management Program, its Title V permit fees
                 should be used to fund Program compliance and enforcement activities for Title V
                 sources. CAA Section 105 grant funds could be used to fund these activities for
                 non-Title V sources. However, OAR does not specifically designate a portion of
                 the Section 105 grant funds for the Risk Management Program. The
                 Headquarters grant allocation includes the category “Air Toxics Implementation,”
                 which encompasses the Risk Management Program. The regions have the
                 discretion to specifically designate a portion of these funds to the Program.
                 However, only Region 4 has exercised this option.

                 We also discussed EPA’s options for increasing the number of State delegated
                 programs. OAR staff said the air toxics section of the CAA (Section 112) is less
                 forceful than other sections in promoting State acceptance of program delegation.
                 EPA cannot insist that States accept delegation. For example, CAA Section 112
                 states:

                          Each State may develop [emphasis added] and submit to the
                          Administrator for approval a program for the implementation
                          and enforcement . . .

                 In contrast, for the National Ambient Air Quality Standards, CAA Section 107
                 states:

                          Sec. 107. (a) Each State shall have the primary responsibility
                          [emphasis added] for assuring air quality within the entire
                          geographic area comprising such State by submitting an
                          implementation plan for such State which will specify the manner
                          in which national primary and secondary ambient air quality
                          standards will be achieved and maintained . . . .

                 Since few State or local agencies have taken delegation of the program, EPA is
                 responsible for ensuring compliance with the majority of facilities nationwide.



10
   According to Region 9’s Enforcement Coordinator for EPCRA and the Risk Management Program, Nevada
requested delegation of the Program but it was not accepted due to problems with the State’s regulatory language.


                                                      20
                                                                                          09-P-0092


Limited Number of EPA Full-Time Equivalents for Program

EPA regions have a limited number of Full-Time Equivalents (FTEs) available to
inspect RMP facilities. Table 3.2 shows the number of Risk Management
Program enforcement FTEs, as reported by EPA to Congress in October 2007,
and the ratio of facilities-per-FTE. This ratio ranges from a low of 140 facilities-
per-FTE in Region 1 to a high of 922 in Region 6. Collectively, the 10 EPA
regions have a ratio of 473 facilities-per-FTE. This ratio is much greater than the
71 facilities-per-FTE for delegated State and local agency Programs.

Table 3.2: Ratio of Facilities per Enforcement FTE [a]
  Region or Delegated            Number of         Number of         Ratio of Facilities
     States/Locals                FTEs [b]         Facilities             per FTE
          1                           1.3               182                 140
          2                           1.5               285                 190
          3                           3.5               698                 199
          4                           1.0               441                 441
          5                           5.0             2,526                 505
          6                           2.5             2,304                 922
          7                           3.8             2,563                 674
          8                           1.0               890                 890
          9                           3.0             1,170                 390
         10                          1.75               470                 269
     EPA Total                      24.35            11,529                 473
     Delegated                      30.19             2,143                  71
     States/Locals
Source: OIG analysis using regional FTE data reported to Congress by EPA, delegated
programs’ FTE data obtained from EPA or directly from the delegated program, and data
obtained from the RMP National Database.

[a] FTEs may perform other duties in addition to inspecting RMP facilities, such as providing
training and outreach to facilities and conducting General Duty Clause and non-filer inspections.
[b] FTEs do not include Senior Environmental Employment program employees. In 2007, EPA
reported to Congress that 19 such employees worked as inspectors in the Risk Management
Program. If these inspectors spent 100 percent of their time on the Risk Management Program,
the ratio of facilities-per-FTE for EPA regions as a whole would be 266, which is still higher than
the 71 for delegated State/local agencies.

Further, delegated State and local agencies generally have less geographic area to
cover than their EPA counterparts. In addition, some regions told us that they had
limited travel funds for Risk Management Program inspections.

OSWER supplements regional FTEs by providing each region with $150,000 in
extramural funds. Some regions have used these funds for grants or other
agreements to enlist inspection support from the States in the region. For
example, Region 7 has used its extramural funding to award grants to its States to
assist in conducting limited reviews of Risk Management Program requirements
at agricultural facilities. In 2004 and 2005, Region 5 had an agreement with the
Illinois Department of Agriculture to conduct federally-enforceable inspections of
agricultural facilities. The Illinois inspectors received the same training as EPA
Risk Management Program inspectors, and conducted about 500 inspections


                                      21
                                                                                                 09-P-0092


                during that period. Staffs in Regions 6 and 7 noted a disparity in funding since
                each region receives the same amount of extramural funds regardless of the total
                number of facilities in its Region.

                Some Inspectors Have Not Received Basic and Advanced Training

                In addition to having a limited number of inspectors to conduct on-site inspections
                of RMP facilities, not all EPA inspectors have received the required Program
                training. EPA Order 3500.1 requires that RMP inspectors have “Risk
                Management Plan Techniques” training. However, when we started our
                evaluation, EPA regional staff in four regions told us that not all of their
                inspectors had this training and EPA had not offered this course in several years.
                Further, staff from three regions and two delegated States said inspectors would
                benefit from more advanced training, such as industry- or process-specific
                training. Funding has been a barrier to obtaining the necessary training.

                In lieu of EPA-provided training courses, staff from some regions said they used
                alternative methods to train their RMP inspectors. Region 6 managers told us
                they had implemented a “train-the-trainer session” in which one inspector was
                sent to the training and this inspector later presented the material to other
                inspectors. Region 6 staff also noted that the Region has sent RMP inspectors to
                the Occupational Safety and Health Administration’s Process Safety
                Management11 training and to Process Safety Management/Risk Management
                Program training provided by private vendors. Region 7 hired a contractor to
                teach the RMP Techniques training course to its staff in the fall of 2005.

                Prior to our field work, EPA took steps to address the training issues by updating
                the curriculum for the RMP Techniques course. EPA conducted the updated
                RMP Techniques training class in June 2008 and October 2008. OEM officials
                told us they plan to continue to offer the RMP Techniques course once a year or
                more as needed.

EPA Does Not Require Inspection of High-Risk Facilities
                In May 2007, OEM and OECA started providing lists of high-risk facilities and
                encouraging regions to inspect these facilities. However, EPA does not require or
                track inspection of high-risk facilities, and only requires regions to inspect
                5 percent of their facilities each fiscal year. Further, OECA and the regional
                inspectors do not routinely identify and agree upon which specific facilities to
                inspect. In contrast, EPA has implemented more rigorous requirements for other
                inspection programs. For example, States submit a list of planned inspections of
                facilities subject to air toxics emissions standards to EPA regions for approval.


11
   The Occupational Safety and Health Administration’s Process Safety Management standard is very similar to
EPA’s Risk Management Program, and many of the EPA’s Program’s requirements are based on that other agency’s
standards.


                                                  22
                                                                                                      09-P-0092


                 We contacted four EPA regions with low inspection rates for OEM’s high-risk
                 facilities to discuss their regional strategies for prioritizing inspections and found
                 the following.

                     •    Region 5’s Chemical Emergency Preparedness and Prevention Section
                          Chief told us the Region selects facilities for inspection based on off-site
                          consequence analysis population impacts, and OEM did not object to this
                          inspection strategy. The Chief said Region 5 has ranked all its facilities
                          based on population impacts and is working its way through that list.
                          Inspection data showed that Region 5 has inspected 81 percent of facilities
                          that could impact 100,000 people or more in a worst-case release scenario
                          (see Table 3.1).

                     •    Region 6’s RMP Enforcement Coordinator told us the Region prioritizes
                          inspections based on geographic distribution; industry sector; accident
                          history; and risk factors such as quantity of chemicals stored on-site,
                          population impacts, and environmental receptors in a worst-case release
                          scenario. He also said that to maximize inspection resources, staff inspect
                          nearby facilities that may not necessarily meet the above criteria. This
                          allows them to inspect multiple facilities during the same inspection trip.
                          They also limit the extent to which they inspect multiple facilities owned
                          and operated by a common “parent entity.” In addition, managers told us
                          that beginning in Fiscal Year 2008 the Region implemented a more risk-
                          based targeting strategy for Title V facilities subject to the Risk
                          Management Program. Accordingly, Region 6 has inspected an additional
                          12 facilities on OEMs’ high-risk list during Fiscal Year 2008.

                     •    Region 7’s RMP Team Leader told us the Region prioritizes facilities to
                          inspect based on accident history and industry sector. The Team Leader
                          told us that because the Risk Management Program rule is a performance-
                          based standard, facilities that have had accidents have the highest
                          inspection priority. In terms of industry sector, Region 7 staff said they
                          have focused on inspecting ammonia refrigeration facilities, refineries, and
                          drinking water facilities for various reasons, including accident history,
                          proximity to population centers, and security issues.

                     •    Region 9 staff told us the Region bases its initial list of facilities to inspect
                          on the criteria OEM used to develop its high-risk lists. It then adds other
                          facilities that are of concern to residents or local agencies, and facilities
                          that have reported releases to the National Response Center. Region 9
                          staff also said that to most effectively utilize their resources, they place an
                          additional focus on facilities in States, such as Arizona, that do not have
                          their own risk management or accident prevention programs.12

12
  Two States in Region 9 – California and Nevada – have accident prevention programs that were established prior
to EPA’s Risk Management Program.


                                                     23
                                                                                             09-P-0092


          We also discussed inspection strategies with Region 10. Region 10 uses a
          prioritization methodology that considers a number of criteria, including number
          of reported accidental releases, population impacted by a worst-case scenario, and
          location in environmentally sensitive areas. Region 10’s strategy also includes
          inspections to detect non-filers.

          The accident rates of never-inspected facilities support an inspection strategy that
          targets high-risk facilities. As shown in Table 3.3, about 29 percent of the never-
          inspected high-risk facilities identified in OEM’s high-risk list have had
          accidents. On the other hand, only about 5 percent of the never-inspected lower-
          risk facilities (i.e., facilities not on OEM’s high-risk list) have had accidents. This
          suggests that never-inspected high-risk facilities are more than 5 times as likely to
          have an accident as never inspected lower risk facilities. The higher accident rate
          for never-inspected high-risk facilities also suggests that OEM’s high-priority
          criteria are successful in identifying facilities that are more likely to have
          accidents. According to data filed by facilities in the RMP National Database,
          there were 162 uninspected facilities listed on OEM’s high-risk list that could
          each impact 100,000 people or more in a worst-case release scenario.

          Table 3.3: Accident Rates for Uninspected Facilities
                                   Number of Never-         Number with                Percent with
                                  Inspected Facilities       Accident(s)               Accident(s)
           OEM High-Risk                   311                   91                        29
           Facilities
           Non-OEM High-Risk              8,795                 406                           5
           Facilities
          Source: OIG-developed table based on inspection/audit data received and data in the RMP
          National Database.


Impact of Accidents at RMP facilities
          The cost of accidents at RMP facilities can be significant in terms of human
          injuries and deaths as well as financial. For example, 1,490 accidents were
          reported to EPA by the current universe of RMP facilities. These accidents
          resulted in over 40 worker deaths, nearly 1,500 worker injuries, over 300,000
          people being sheltered in place, and over $1 billion in on-site and off-site
          damages. These effects, along with the accident rate of never-inspected high-risk
          facilities, show the importance of prioritizing inspections based on risk.

          We noted that accidents occurred at two RMP facilities in Region 6 after we
          began our evaluation, and neither facility was ever inspected/audited by the Risk
          Management Program office. One of these facilities was on OEM’s list of Tier 1
          facilities. These accidents resulted in one worker death, multiple injuries, and
          significant on-site monetary damage. In a worst-case scenario, over 35,000
          people could have been impacted by each of these accidents.




                                             24
                                                                                     09-P-0092


Conclusions
         Although nearly 10 years have passed since the inception of the Risk
         Management Program in 1999, EPA regions have only inspected/audited about
         40 percent of OEM’s high-risk facilities. These inspection/audit rates were much
         lower than those of delegated States and local agencies. Given the limited
         number of EPA resources to implement the Program, we believe a more rigorous
         risk-based inspection approach is warranted. Prioritization of inspections based
         on risk is important because of the significant effects of past accidents and the
         higher accident rates of never-inspected high-risk facilities. If a covered facility
         has not been inspected, EPA does not have reasonable assurance that the facility
         has taken measures to operate safely. This can put the public, employees, and
         first responders at risk in case of an accident.

Recommendations
         We recommend that the Assistant Administrator for Solid Waste and Emergency
         Response:

         3-1    Provide the Risk Management Program required training courses to ensure
                that all Program inspectors are adequately trained, and provide industry-
                specific training when warranted.

         3-2    Explore strategies for providing additional resources to those regions with
                high facility-to-FTE ratios to ensure that high-risk facilities are inspected
                expeditiously.

         We recommend that the Assistant Administrator for Enforcement and Compliance
         Assurance:

         3-3    Develop and implement a risk-based inspection strategy that incorporates
                regional input on high-risk facilities to prioritize facilities for inspection
                based on risk and other priority measures.

         3-4    Revise the performance expectation for the Risk Management Program to
                incorporate the inspection of the high-risk facilities developed in response
                to Recommendation 3-3.

         3-5    Track which high-risk facilities have been inspected by the regions and/or
                delegated State/local agencies and develop procedures to provide
                expeditious inspection coverage of those high-risk facilities not inspected
                by the regions or State/local agencies.




                                        25
                                                                                    09-P-0092


Agency Comments and OIG Evaluation

         OSWER and OECA agreed with all recommendations in Chapter 3, and noted
         that they had taken steps in the past few years that support several of our
         recommendations. A summary of the Agency’s response to each
         recommendation and our analysis follows.

            •   Recommendation 3-1: OSWER stated that it has scheduled another Risk
                Management Plan Techniques training course for February 2009 and is
                planning an additional course for the fall of 2009. OSWER noted that by
                the end of 2009, it will have trained approximately 100 RMP inspectors.

            •   Recommendation 3-2: OSWER stated that it is “beginning to explore
                various options for getting additional resources to Regions with a high
                number of high-risk facilities to improve the inspection rate of these
                facilities.”

            •   Recommendation 3-3: OECA stated that it is working with OSWER to
                develop a more “rigorous” definition of a high-risk facility, which they
                expect to incorporate into their National Program Manager Guidance for
                Fiscal Year 2010. According to the Agency, with this new definition,
                “[r]egions will be better equipped to identify and target high-risk facilities
                for inspections.”

            •   Recommendation 3-4: OECA stated that it is working with OSWER to
                revise the performance expectation in the Fiscal Year 2010 National
                Program Manager Guidance to incorporate the inspection of high-risk
                facilities.

            •   Recommendation 3-5: OECA stated that it is working with OSWER to
                develop a mechanism for tracking which high-risk facilities have not been
                inspected.

         We believe the general actions outlined in OSWER’s and OECA’s responses
         meet the intent of our recommendations. The recommendations will remain open
         in our tracking system pending our receipt and approval of the Agency’s final
         corrective action plan. Appendix C contains the full texts of OSWER’s and
         OECA’s responses to the draft report.




                                        26
                                                                                                                                        09-P-0092



                             Status of Recommendations and
                               Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                  Planned
Rec.   Page                                                                                                      Completion   Claimed    Agreed To
No.     No.                           Subject                           Status1         Action Official             Date      Amount      Amount

2-1     12    Strengthen controls to identify facilities that did not     O        Assistant Administrator for    12/2009
              file RMPs by:                                                       Solid Waste and Emergency
                 • Revising Headquarters operating guidance to                             Response
                   specify how often the regions should conduct
                   reviews to identify non-filers, and establish
                   milestones for reviewing and removing
                   inactive facilities from the RMP National
                   Database.
                 • Incorporating the TRI search methodology
                   and other effective methodologies used by
                   EPA regions (e.g., using the EPCRA and TRI
                   on-site compliance evaluations) into the new
                   Headquarters guidance for regions to use in
                   identifying potential non-filers.
                 • Updating the RMP National Database to
                   de-activate closed facilities.

2-2     13    Ascertain whether the facilities we identified              O        Assistant Administrator for     9/2009
              through our TRI and EPCRA data searches are                         Solid Waste and Emergency
              subject to Risk Management Program                                           Response
              requirements and, if so, take appropriate action to
              ensure that these facilities comply with Program
              requirements.

2-3     13    Instruct Title V permitting authorities on the proper       O        Assistant Administrator for   4/27/2009
              procedures for identifying and including Risk                            Air and Radiation
              Management Program requirements in Title V
              permits – including guidance on how to verify
              whether facilities have submitted RMPs – and
              monitor implementation of these requirements.

3-1     25    Provide the Risk Management Program required                O        Assistant Administrator for    12/2009
              training courses to ensure that all Program                         Solid Waste and Emergency
              inspectors are adequately trained, and provide                               Response
              industry-specific training when warranted.

3-2     25    Explore strategies for providing additional                 O        Assistant Administrator for
              resources to those regions with high facility-to-FTE                Solid Waste and Emergency
              ratios to ensure that high-risk facilities are                               Response
              inspected expeditiously.

3-3     25    Develop and implement a risk-based inspection               O        Assistant Administrator for
              strategy that incorporates regional input on high-                       Enforcement and
              risk facilities to prioritize facilities for inspection               Compliance Assurance
              based on risk and other priority measures.

3-4     25    Revise the performance expectation for the Risk             O        Assistant Administrator for
              Management Program to incorporate the inspection                         Enforcement and
              of the high-risk facilities developed in response to                  Compliance Assurance
              Recommendation 3-3.




                                                                           27
                                                                                                                                            09-P-0092


                                                                                                                                  POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed To
    No.      No.                          Subject                            Status1        Action Official             Date      Amount      Amount

    3-5       25    Track which high-risk facilities have been inspected       O       Assistant Administrator for
                    by the regions and/or delegated States/local                           Enforcement and
                    agencies and develop procedures to provide                          Compliance Assurance
                    expeditious inspection coverage of those high-risk
                    facilities not inspected by the regions or State/local
                    agencies.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                28
                                                                                       09-P-0092


                                                                                   Appendix A

                 Details on Scope and Methodology
To determine whether procedures were in place to provide reasonable assurance that all facilities
subject to the Risk Management Program regulations had submitted RMPs (first objective), we:

1. Reviewed the 2006 TRI to identify facilities in four States (Colorado, North Carolina,
   Pennsylvania, and Texas) that reported having on-site quantities of ammonia, chlorine, or
   hydrogen fluoride at levels well above the Risk Management Program thresholds. We used
   TRI data from 2006 because that was the most recent year for which TRI data were available.
   We then reviewed the RMP National Database (current as of November 29, 2007) to
   determine whether these facilities had filed RMPs with EPA. For all four States, we met
   with EPA regional staff to discuss whether the facilities may be subject to Program
   requirements and should submit an RMP to EPA.

2. Reviewed 2008 EPCRA data provided by Oklahoma to identify facilities that reported having
   on-site quantities of ammonia, chlorine, or hydrogen fluoride at levels above the Risk
   Management Program thresholds. We then reviewed the RMP National Database (current as
   of November 29, 2007) to determine whether these facilities had filed RMPs with EPA. If
   they had not, we provided their names and amounts of reported chemicals to EPA regional
   staff to determine whether they may be subject to Program requirements and should submit
   an RMP to EPA.

3. Reviewed the RMP National Database to identify facilities that had not re-filed an RMP
   5 years after the original RMP, as required by 40 CFR Part 68. We compared this list of
   facilities to a similar list developed by EPA in September 2005 to determine how many of the
   facilities from the 2005 list remained unresolved in the RMP National Database.

4. Reviewed a sample of Title V permits from eight States (Arizona, Colorado, Florida,
   Georgia, Illinois, Iowa, New York, and North Carolina), to determine whether the Title V
   permitting agencies were identifying the status of Risk Management Program facilities
   during the permit application process and correctly incorporating the Program requirements
   in the facilities’ Title V permits, as required by regulation and EPA guidance. We also
   interviewed staff from four of the eight States (Arizona, Colorado, Illinois, and New York) to
   determine whether they verified if RMP-covered sources had submitted an RMP, as required
   by regulation and EPA guidance.

To determine whether the inspection process provides reasonable assurance that covered
facilities comply with Risk Management Program requirements (second objective), we:

1. Compared the Risk Management Program active universe as of November 29, 2007, with the
   inspections/audits completed as of December 31, 2007, to determine the percentage of active
   facilities inspected or audited. To complete this analysis, we requested and obtained lists of
   inspections/audits completed between the inception of the Program in 1999 and December 31,



                                             29
                                                                                                          09-P-0092


     2007 from all implementing agencies (i.e., EPA regions and delegated State and local
     agencies).

2. Determined whether high-risk facilities were inspected/audited by comparing lists of these
   facilities with the inspections/audits completed as of December 31, 2007. We used three lists
   of high-risk facilities: (1) OEM’s lists of Tiers 1 and 2 facilities; (2) facilities that could
   impact 100,000 people or more in a worst-case release scenario, which we developed using
   data from the RMP National Database; and (3) facilities with the highest 5 percent of hazard
   indices in their respective implementing agency. We developed this list by calculating the
   hazard index of each facility using the Wharton School’s formula.13

3. Determined whether the November 29, 2007, universe of facilities that had accidents as
   reported in their RMPs have ever been inspected/audited by comparing these facilities with
   the inspections/audits completed as of December 31, 2007. We obtained the lists of
   inspections/audits completed since the inception of the program from all implementing
   agencies as described above.

4. Determined the ratio of FTE staff assigned to enforcement of the Risk Management Program
   in each implementing agency to the number of facilities for which that agency is responsible.
   We used EPA FTE information provided in the October 2007 EPA written response to
   questions from the Senate Committee on Environment and Public Works. With regard to
   delegated States and local agencies, we requested FTE information directly from the State or
   through the appropriate EPA regional contacts. We then compared these ratios among EPA
   regions and delegated State and local agency programs.

Prior Reports

The EPA OIG has not conducted any prior audits or evaluations of the CAA 112(r) Risk
Management Program. In July 2002, the Government Accountability Office issued a report on
chemical facilities’ reporting requirements under EPCRA and CAA 112(r) for the Risk
Management Program. This report (Emergency Response Community Views on the Adequacy of
Federally Required Chemical Information), noted that although EPA took steps to try to identify
the full universe of sources subject to the Risk Management Program requirements, the total
number of facilities required to submit RMPs was uncertain. The report also noted that EPA had
only reviewed about 15 percent of the submitted RMPs and did not have a complete picture of
the accuracy of most plans; the number of onsite inspections conducted by the regions varied
from 2 to 145.

We also reviewed the following reports from other federal agencies that touched on the
CAA 112(r) Risk Management Program.

     •   National Transportation Safety Board Hazardous Materials Accident Report:
         Hazardous Materials Release from Railroad Tank Car with Subsequent Fire

13
  The Wharton School’s hazard index is defined as “the sum over all chemicals of log2 (maximum quantity of
inventory on-site/threshold), or, alternatively, as the number of chemicals times log2 of the geometric mean of the
maximum-to-threshold quantity ratio.”


                                                       30
                                                                                          09-P-0092


       Riverview, Michigan, July 14, 2001 (Report No. NTSB/HZM-02/01): This report
       noted that the number of inspectors EPA has to oversee operations covered by the Risk
       Management Program is limited compared to the number of covered facilities.

   •   U.S. Chemical Safety and Hazard Investigation Board Investigation Report:
       Refinery Explosion and Fire, March 20, 2007 (Report No. 2005-04-I-TX): This report
       noted that EPA enforcement of the Risk Management Program requirements has relied
       primarily on reviews of submitted RMPs rather than on-site inspections.

Limitations

In addressing the second objective, we limited our assessment to whether on-site inspections or
audits were conducted. We did not assess the effectiveness of inspections or audits conducted.
Given the significant number of facilities that had not received on-site inspections or audits, we
believe sufficient data were gathered to address our objective.

In addition, we did not independently verify the accuracy of data in the RMP National Database
nor perform a detailed assessment of the database’s controls. However, we discussed data
controls with OEM staff, reviewed reports of prior Risk Management Program studies conducted
by Wharton School researchers that addressed RMP data accuracy, and interviewed the authors
of these prior reports. Wharton researchers found that key data elements, such as facility
location, the number of employees, quantity of listed chemicals in covered processes, and
accident history (e.g., definition of reportable accident), could be interpreted in different ways.
Although these differing interpretations could impact data accuracy in either direction (under-
reporting or over-reporting), the researchers believed that hazards and adverse events were more
likely to be under-reported than over-reported. Inaccurate reporting of accidents could impact
one of our report’s findings. During our review, we used the accident history reported in the
RMP National Database to identify facilities with prior accidents to determine whether facilities
with accidents had ever been inspected. If this field was under-reported, then the number of
facilities with accidents would be larger than the number we identified for our review. Even if
additional facilities had accidents that were not reported in the RMP National Database, we
believe our analysis was sufficient to demonstrate that a significant number of facilities reporting
accidents had not received on-site inspections or audits.

In determining the numbers of on-site inspections and audits conducted, we only included
activities that were on-site Risk Management Program compliance inspections or audits. For
example, we did not include desk audits, General Duty Clause inspections, accident
investigations, compliance assistance visits, or inspections at facilities not regulated under the
Risk Management Program rule. We did not include accident investigations because the
objective of such an investigation does not include evaluating whether a facility has complied
with all elements of the Risk Management Program rule. All of these activities provide varying
degrees of oversight and could improve compliance with the Program. However, as noted in
EPA’s National Program Manager Guidance, regions should conduct on-site CAA 112(r) Risk
Management Program inspections, and OEM has provided regions with an audit checklist as
guidance to ensure that the regulatory requirements are met by the facilities. The above actions
do not address all the elements in OEM’s audit checklist.



                                               31
                                                                                        09-P-0092


                                                                                    Appendix B

             Regional Activities to Identify Non-Filers

We obtained information on activities to identify RMP non-filer from eight regions. Examples
of regional non-filer activities follow.

Region 2:     The Region used various data sources, including telephone books, Dun and
              Bradstreet Numbers industry data, and EPCRA Tier II data obtained from States.

Region 3:     The Region used TRI data searches in the past and plans to start using them again.
              The Region has also used EPCRA Tier II data from States and information from
              the National Pollutant Discharge Elimination System.

Region 4:     The Region looked for RMP non-filers during EPCRA and TRI on-site
              inspections.

Region 6:     Regional air inspectors checked facilities’ RMP status when conducting CAA
              Full Compliance Evaluations. In the early years of the Program (2000-2001), the
              Region used North America Industry Classification System codes to target certain
              industries likely to be covered.

Region 7:     Based on inspection data provided to the OIG, the Region conducted 160 on-site
              non-filers inspections during 2000-2007. In addition, the Region has used TRI
              searches in the past, and identified only a few non-filers using that method.

Region 8:     The Region looked for RMP non-filers during on-site inspections for the EPCRA
              and Comprehensive Environmental Response, Compensation, and Liability Act
              programs. The Region has also used data sources such as TRI and Dun and
              Bradstreet industry data.

Region 9:     Based on inspection information provided to the OIG, the Region conducted 208
              on-site inspections to identify non-filers during 2000-2007. The Response,
              Planning and Assessment Branch Chief said the Region uses TRI, Tier II, and other
              EPA-tracked environmental data to identify potential non-filers for inspection.

Region 10:    The Region employed standardized procedures using TRI and other sources of
              information to identify potential non-filers, and conducted on-site inspections of
              these potential non-filers. The Risk Management Program Leader told us that
              very few of the facilities they identified using TRI searches were required to
              submit RMPs. Based on inspection data provided to the OIG, the Region
              conducted 104 on-site non-filer inspections during 2000-2007, as well as over
              1,000 off-site activities to determine if facilities should submit an RMP. The
              Region reported identifying 16 non-filers since 2004.



                                             32
                                                                                       09-P-0092


                                                                                   Appendix C

                                Agency Responses
           Response from the Office of Solid Waste and Emergency Response

                                         January 15, 2009

SUBJECT:       OSWER Response to OIG Draft Evaluation Report, “EPA Can Improve
               Implementation of the Risk Management Program for Airborne Chemical
               Releases”

FROM:          Susan Parker Bodine /s/
               Assistant Administrator

TO:            Bill A. Roderick
               Deputy Inspector General
               Office of Inspector General

       Thank you for the opportunity to review and comment on the Draft OIG Evaluation
Report, “EPA Can Improve Implementation of the Risk Management Program for Airborne
Chemical Releases”. The Office of Solid Waste and Emergency Response (OSWER) has
completed its review and concurs with the proposed recommendations specific to OSWER. We
have outlined below our planned completion dates for the recommendations. Additionally, we
have several specific editorial comments on the factual accuracy of the draft report which we
have included in the attached copy of the report.

    On the whole, we agree with the findings and recommendations discussed in the report. For
the past several years, we have been working in close coordination with the Office of
Enforcement and Compliance Assurance (OECA) on several of these issues. It is encouraging
that the findings in the report show we are moving in the right direction, and we will continue
working to further improve the implementation of the Risk Management Program. Below is our
response to the recommendations.

   In Chapter 2, recommendations 2.1 and 2.2 state:

   o Strengthen controls to identify facilities that did not file Risk Management Plans (RMPs)
     by:

       -    Revising Headquarters operating guidance to specify how often the regions should
            conduct reviews to identify non-filers, and establish milestones for reviewing and
            removing inactive facilities from the RMP National Database.

       -    Incorporating the Toxics Release Inventory (TRI) search methodology and other
            effective methodologies used by EPA regions (e.g., using the Emergency Planning
            and Community Right-To-Know Act (EPCRA) and TRI on-site compliance


                                              33
                                                                                       09-P-0092


           evaluations) into the new Headquarters guidance for regions to use in identifying
           potential non-filers.

       -   Updating the RMP National Database to de-activate closed facilities.

   o Ascertain whether the facilities we identified through our TRI and EPCRA data searches
     are subject to Risk Management Program requirements and, if so, take appropriate action
     to ensure that these facilities comply with Program requirements.

    For recommendation 2.1, OSWER will provide guidance to Regions by December 2009,
which specifies how and when Regions should conduct reviews to identify non-filers as well as
the methodologies to be used for those reviews. This guidance will also include a timeline for
reviewing and removing inactive facilities and de-activating closed facilities from the RMP
National Database.

    For recommendation 2.2, several Regions are in the process of reviewing the TRI and
EPCRA facilities identified in the data search and determining if those facilities are covered by
the RMP requirements and need to submit a RMP. Those reviews should be completed in
September 2009. Depending upon the outcome of these reviews, we will take appropriate action
to ensure that these facilities comply with the RMP requirements.

   In Chapter 3, recommendation 3.1 and 3.2 state:

   o Provide the Risk Management Program required training courses to ensure that all
     Program inspectors are adequately trained, and provide industry-specific training when
     warranted.

   o Explore strategies for providing additional resources to those regions with high facility-
     to-FTE ratios to ensure that high-risk facilities are inspected expeditiously.

    As stated in the report, in early 2008, we revised the RMP Inspector’s Training course and
provided two training sessions in June 2008 and October 2008. Additionally, we have scheduled
the next training session in Region 6 for February 2009 and will be scheduling another session in
the fall of 2009. These training sessions include our Regional inspectors as well as inspectors
from RMP Implementing agencies. By the end of 2009, we will have trained approximately 100
RMP inspectors. In addition, we are beginning to explore various options for getting additional
resources to Regions with a high number of high risk facilities to improve the inspection rate of
these facilities.

   We would also like to point out that our office has been and will continue to work closely
with OECA as we continue to further our efforts in implementing the Risk Management
Program. Specifically, as noted in your report, OSWER and OECA jointly revised their National
Program Manager Guidance to provide the regions with specific risk-related factors to be
considered in deciding which facilities to inspect. Currently, OSWER and OECA are working
together to develop a more exact definition of what defines a high-risk facility and we expect to




                                             34
                                                                                     09-P-0092


incorporate the new definition into the National Program Managers Guidance for Fiscal Year
2010.

   Again, we appreciate the opportunity to comment on this draft report. If you have any
questions or comments, please contact Kim Jennings at (202) 564-7998.

Attachment




                                            35
                                                                                         09-P-0092




                      Response from the Office of Air and Radiation


                                        January 27, 2009

MEMORANDUM

SUBJECT:       Draft Evaluation Report: EPA Can Improve Implementation of the Risk
               Management Program for Airborne Chemical Releases
               Assignment No. OPE-FY08-0001

FROM:          Elizabeth Craig /s/
               Acting Principal Deputy Assistant Administrator
               Office of Air and Radiation

TO:            Wade T. Najjum
               Assistant Inspector General for Program Evaluation

        We appreciate the Office of Inspector General (OIG) efforts in completing the draft
report entitled "EPA Can Improve Implementation of the Risk Management Program for
Airborne Chemical Releases" (Assignment No. OPE-FY08-0001). The Office of Air Radiation
(OAR) concurs with comment on the OIG's recommendation 2-3.

        OAR has issued multiple guidance documents to the Regions and States on how to
implement the requirements of the Accidental Release Prevention Program, specifically, the
requirements of Section 112(r) in the context of the Title V program. The April 20, 1999
memorandum entitled "Title V Program Responsibilities Concerning the Accidental Release
Prevention Program" from Steven J. Hitte to the Region Air Program Managers provides specific
information related to implementation of the Risk Management Program and those aspects
highlighted by recommendation 2-3. Nonetheless, we recognize that because the guidance is
nearly 10 years old, its implementation would benefit from a reminder to the Regional Air
Division Directors of the existence of this guidance as outlined in the attached action plan. A
similar reminder from the Regions to the States would also be beneficial. Therefore, we will
instruct the Regional Air Division Directors to ensure that the State Title V Program Managers
are reminded of the existence of the guidance and that it is being properly implemented. As
indicated in the Action Plan, this information will also be posted on the Region 7 website with
the rest of the Title V Program materials.

       If you have additional questions after reviewing this response, please do not hesitate to
request clarification from either Michael Boucher at (919)541-7627 or Juan Santiago at
(919)541-1084. Thank you again for the assistance and effort.

Attachment

cc:    Pete Cosier, OAR Audit Follow-up Coordinator
       Michael Boucher, OAQPS Audit Follow-up Coordinator


                                              36
                                                                                   09-P-0092




      Rick Beusse, Director for Program Evaluation, Air Issues, OIG
      OIG Juan Santiago, OAQPS Title V Group Leader




Action Plan
Number Recommendation                  Planned Corrective Action         Planned
                                                                         Completion
2.3     Instruct Title V permitting    Obtain from the Office of         Within 90 days.
        authorities on the proper      Emergency Management the
        procedures for identifying     procedure for access to the
        and including Risk             RMP database for distribution.
        Management Program             Remind the Regional Air
        (RMP) requirements in Title    Division Directors of the
        V permits – including          existence of this guidance and
        guidance on how to verify      post this information on the
        whether facilities have        appropriate website. Instruct
        submitted RMPs – and           the Regional Air Division
        monitor implementation of      Directors to inform State Title
        these requirements.            V Program Managers of the
                                       guidance and the links for
                                       obtaining it.




                                          37
                                                                                           09-P-0092




       Response from the Office of Enforcement and Compliance Assurance


                                         January 23, 2009

MEMORANDUM

SUBJECT:      Response to the Office of Inspector General Draft Evaluation Report,
              “EPA Can Improve Implementation of the Risk Management Program for
              Airborne: Chemical Releases,” Assignment Number OPE-FY08-0001
              (December 18, 2008)

FROM:         Catherine R. McCabe /s/
              Acting Assistant Administrator

TO:           Wade T. Najjum
              Assistant Inspector General
              Office of Program Evaluation
              Office of Inspector General

         Thank you for the opportunity to review and comment on the draft evaluation report
titled, “EPA Can Improve Implementation of the Risk Management Program for Airborne
Chemical Releases,” Assignment Number OPE-FY08-0001. The Report focuses on improving
EPA’s implementation of the Clean Air Act’s Risk Management Program (Report), and includes
recommendations to the Office of Solid Waste and Emergency Response (OSWER), Office of
Air and Radiation (OAR), and Office of Enforcement and Compliance Assurance (OECA).

        In summary, OECA agrees with the Report’s recommendations and has taken important
steps in the past several years that support several recommendations. OECA is committed to
further enhancing its targeting efforts and improving the tracking of Risk Management Program
(RMP) inspections. This response is limited to recommendations specifically made to OECA.

• Recommendation 3-3: Develop and implement a risk-based inspection strategy that
  incorporates regional input on high-risk facilities to prioritize facilities for inspection based
  on risk and other priority measures.

   OECA concurs with this recommendation. OECA is working with OSWER and the Regions
   to develop an approach for targeting high-risk facilities to make the best use of limited
   inspection resources. As part of this effort, we will develop a more rigorous definition of a
   high-risk facility. OECA expects to incorporate the new definition into the National Program
   Managers Guidance for Fiscal Year 2010. With the new definition, Regions will be better
   equipped to identify and target high-risk facilities for inspections.

• Recommendation 3-4: Revise the performance expectation for the RMP to incorporate the
  inspection of the high-risk facilities developed in response to Recommendation 3-3.



                                               38
                                                                                        09-P-0092


   OECA concurs with this recommendation. OECA and OSWER are working jointly to revise
   the performance expectation for inspection in the National Program Managers Guidance for
   Fiscal Year 2010.

• Recommendation 3-5: Track which high-risk facilities have been inspected by the regions
  and/or delegated State/local agencies and develop procedures to provide expeditious
  inspection coverage of those high-risk facilities not inspected by the regions or State/local
  agencies.

   OECA concurs with this recommendation. OECA is working with OSWER to develop an
   appropriate tracking mechanism to assist Regions in identifying high-risk facilities that have
   not been inspected. The Agency believes existing coordination procedures with State and
   local agencies can be used to leverage limited resource and ensure high-risk facilities are
   inspected first.

    In addition to responding to the Report’s recommendations, we would also like to offer
technical clarifications:

1) The Report describes inspections and audits conducted under section 68.220 of the RMP
   regulations. The Report appears to imply that inspections and audits are equally effective in
   assuring compliance with the regulations. In fact, the two activities are very different.
   Inspections cover the entire scope of the RMP, while audits are confined only to the
   requirements of Subpart G of the regulations. In addition, section 68.220 audits cannot result
   in enforcement actions, should the audit uncover deficiencies. The section 68.220 audits can
   only result in requiring revisions to the risk management program. For these two reasons,
   OECA requires Regions to conduct inspections, not audits, in order to meet their
   performance commitments. OECA has also strongly encouraged Regions to devote their
   limited resources to conducting inspections rather than the more limited audits. Most Regions
   have moved in this direction and no longer conduct any audits. We suggest the final report be
   more precise in highlighting this distinction.

2) We would also like to request the revision of two sentences:
   a) Page 5 (second paragraph) states: “…As a result of these conditions, all facilities subject
      to the Program may not be preparing RMPs and taking adequate measures to prevent
      accidents or mitigate the consequences of such accidents to the public...” This sentence
      implies that no facilities are preparing RMPs when some have. We request the sentence is
      revised to read, “As a result of these conditions, not all facilities subject to the Program
      may not be preparing RMPs and taking adequate measures to prevent accidents or
      mitigate the consequences of such accidents to the public.”

   b) On page 15 (second paragraph), a sentence states: “However, OECA revised its National
      Program Manager Guidance in Fiscal Year 2009 to state regions should consider the
      following risk-related factors in deciding which facilities to inspect.” OECA recommends
      revising the sentence to read, “OECA and OSWER revised the National Program
      Manager Guidance. Both offices worked harmonize the guidance and the language for
      both is now identical.”


                                             39
                                                                                   09-P-0092




       Again, we appreciate the opportunity to review and comment on this Report. Should you
have any questions or concerns regarding this response, please contact OECA's Audit Liaison,
Gwendolyn Spriggs on 202-564-2439.

cc:    Adam Kushner, OECA/OCE
       Margaret Schneider, OECA/OAP
       Lauren Kabler, OECA/OCE
       Gwendolyn Spriggs. OECA/OAP




                                           40
                                                                                                 09-P-0092




                                                                                            Appendix D

      Overall Inspection/Audit Rates of RMP Facilities
The following table shows the number of active RMP facilities, as of November 29, 2007, and
the percentage of facilities inspected/audited at least once by EPA regions and delegated State
and local agencies. The table does not include inspections/audits performed by non-delegated
State and local agencies with programs similar to the Risk Management Program (e.g.,
California, Louisiana, and Nevada) because we did not assess whether these inspections/audits
were comprehensive, and EPA does not routinely collect data on these inspections. Further,
implementing offices may have conducted on-site inspections and audits at more facilities than
reflected in these totals, since we only counted inspections of facilities currently shown as active
in the RMP National Database. If a facility was inspected but was de-registered as of
November 29, 2007, that inspection would not be reflected in these totals.

Table D-1: Percentage of Facilities Inspected/Audited by EPA Regions and Delegated State and
Local Agencies
      Region or            Number of Active     Number of Facilities with
      Delegated          Facilities in 11/29/07   At Least One On-site      Percent of Facilities
    States/Locals              Universe             Inspection/Audit         Inspected/Audited
         1                         182                     101                        55
         2                         285                     132                        46
         3                         698                     256                        37
         4 [a]                     441                     388                        88
         5                       2,526                     681                        27
         6                       2,304                     518                        22
         7                       2,563                     257                        10
         8                         890                     445                        50
         9                       1,170                     140                        12
        10                         470                     136                        29
 EPA Subtotal [b]               11,529                   3,054                        26
 Delegated States/               2,143                   1,512                        71
 Locals Subtotal
 Total [c]                      13,672                   4,566                        33
Source: OIG analysis based on data obtained from the RMP National Database, all 10 EPA regions, and
State/local agencies with program delegation.

[a] Most facilities in Region 4 are managed under delegated programs. The universe and inspection rates
for these facilities are reflected under the delegated States/locals category.
[b] Does not include inspections/audits performed by non-delegated State and local agencies with
programs similar to the Risk Management Program (e.g., California, Louisiana, and Nevada) because we
did not assess whether these inspections/audits were comprehensive, and EPA does not routinely collect
data on these inspections.
[c] Regions and delegated States/locals may have conducted more on-site inspections and audits than
reflected in these totals because we only counted inspections of facilities currently shown as active in the
RMP National Database. If a facility was inspected but was de-registered as of November 29, 2007, that
inspection would not be reflected in these totals.




                                                  41
                                                                                                  09-P-0092


                                                                                           Appendix E

          On-Site Risk Management Program-Related
            Inspections and Audits by EPA Region
The following table shows the total number of EPA regionally conducted, CAA Section 112(r)-
related, inspections and audits for the period October 1, 1999 (Fiscal Year 2000) through
December 31, 2007 (the first quarter of Fiscal Year 2008). The table includes inspections of
facilities that filed RMPs with EPA as well as inspections of facilities that had not filed RMPs.
The non-RMP facility inspections include inspections to assess facility compliance with the
General Duty Clause of CAA Section 112 (r) and inspections to identify facilities that may be
subject to the Risk Management Program provisions but which had not submitted RMPs.

Table E-1: CAA Section 112(r)-Related On-Site Inspections and Audits, by Fiscal Year
 Region 2000        2001     2002    2003      2004    2005     2006    2007 2008[a]              Totals
    1         0       14      16       18       33      23       26       28       8                 166
    2       83        87      63       86       29      48       39       40      13                 488
    3       13        38      40       38       53      63       49       55      15                 364
    4         0       38      86      122       76      80       74       96      15                 587
    5         0        0       3       44      264     377       41       63       3                 795
    6         1        2       7       74       90     155       96      158      33                 616
    7       72        49      57       27       29      33       84      101      32                 484
    8       16        67     134       79       66     116       65       73      33                 649
    9 [b]   34        16       6       34       62      29       71       56      20                 328
  10        20        22      25       23       43      37       54       43       1                 268
 Totals    239      333      437      545      745     961      599      713     173               4,745
Source: Data from regions and EPA’s Integrated Compliance Information System database.

[a] Fiscal Year 2008 data as of December 31, 2007.
[b] Region 9 reported 36 additional inspections but could not provide us with inspection dates.




                                                 42
                                                                                           09-P-0092


                                                                                       Appendix F

                        Inspection/Audit Rates for
                      Facilities Reporting Accidents

The following table shows the percentage of active RMP facilities reporting accidents in their
RMPs that were inspected or audited by EPA or State/local agencies. We only determined
whether a facility reporting an accident was ever audited or inspected. We did not assess
whether the inspection or audit occurred before or after an accident. In some cases, the audit or
inspection may have occurred prior to the accident, and thus the inspection or audit was not
conducted in response to the accident. Our analysis does not include accident investigations that
did not include a full Risk Management Program inspection or audit. EPA regions or State and
local agencies may have conducted investigations of accidents at these facilities that are not
reflected in this table.

Table F-1: Inspection/Audit Rate of Facilities that Reported Accidents in their RMPs
                                  Number of Active             Number                Percent
       EPA Region or            Facilities in 11/29/07   Inspected/Audited      Inspected/Audited
 Delegated States/Locals       Universe with Accidents     as of 12/31/2007      as of 12/31/2007
             1                              8                       4                   50
             2                            18                       15                   83
             3                            60                       43                   72
             4 [a]                        35                       32                   91
             5                           165                       55                   33
             6                           210                       43                   20
             7                           127                       47                   37
             8                            37                       28                   76
             9                            82                       18                   22
            10                            24                       10                   42
      EPA Subtotal                       766                      295                   39
      Delegated States/                  178                      152                   85
      Locals Subtotal
      Total [b]                          944                      447                   47
Source: OIG analysis based on data obtained from the RMP National Database, all 10 EPA regions, and
State/local agencies with program delegation.

[a] Most facilities in Region 4 are located in States with delegated programs. The universe and
inspection rates for these facilities are reflected under the delegated States/locals category.
[b] Totals do not include inspections/audits performed by non-delegated State and local agencies with
programs similar to the Risk Management Program (e.g., California, Louisiana, and Nevada) because we
did not assess the scope of these inspections/audits, and EPA does not routinely collect these data.
Region 9 staff told us that California has conducted over 4,900 inspections under its State accident
prevention program, and that Nevada conducts comprehensive reviews of all facilities under its State
program at least once every 5 years.




                                               43
                                                                                 09-P-0092


                                                                             Appendix G

                                   Distribution

Office of the Administrator
Acting Assistant Administrator for Solid Waste and Emergency Response
Acting Assistant Administrator for Enforcement and Compliance Assurance
Acting Assistant Administrator for Air and Radiation
Acting Regional Administrators, Regions 1 - 10
Director, Office of Emergency Response, Office of Solid Waste and Emergency Response
Office of General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinators, Regions 1 - 10
Deputy Inspector General




                                          44
